                           CLOSEOUT FOR M-96090023

        On 5 September 1996, an NSF Deputy Division Director @DD)' brought OIG a letter
from complainants 1 and 2.2 The complainants alleged that an NSF program office? (the
first program oEcer) mismanaged their Small Grants for Exploratory Research (SGER)
pr~posal.~  Specifically, the complainants alleged that the first program officer: 1) delayed
processing the SGER proposal so that other applications on the same topic could be
considered, reducing the chances that their proposal would be funded; 2) failed to inform the
complainants of the SGER proposal's declination in a timely fashion; 3) reviewed the SGER
proposal externally, which, according to the complainants, was not permitted; and 4)
intentionally distorted, manipulated, and misinterpreted information contained in their SGER
proposal so that it would be declined.

       Allemtion #1: OIG was informed that NSF expected decisions on SGER proposals to
be made in less than the 6 months. The processing of the complainants' SGER proposal took
about 5 months. The complainants claimed that the first program officer told them that it
would be processed in 2 to 3 months.

        SGER proposals, which are intended for exploratory andlor high risk innovative
research projects, are internally reviewed by an appropriate program officer. According to
the SGER program guidelines, a PI is encouraged to consult with the appropriate program
officer before submitting a proposal in order to determine whether the proposed project
would be appropriate. As such, SGER proposals are not in competition with unsolicited
basic research proposals.

      OIG learned that, in this case, the first program officer had encouraged the
complainants to submit the SGER proposal describing an idea that appeared in the
complainants' earlier declined standard NSF proposal.' After the complainants submitted the
SGER proposal, its processing involved several steps. First, the first program officer

                                     ctor in the Division of

                                     d complainant #2 is             Both work in th




                                         Page 1 of 4                                   M 96-23
                              CLOSEOUT FOR M-96090023

explained that, after reviewing the complainants' SGER proposal, he requested that the
complainants provide additional information to strengthen it. According to the first program
officer, the complainants provided additional information, but it was not what he had asked
for. Second, although the first program officer disagreed with some of the complainants'
interpretations in the SGER proposal and was inclined to decline the proposal, he asked a
second program officer6 for an opinion. Third, the first program officer explained that, after
the second program officer reviewed the proposal and agreed that it should be declined, .the
first program officer continued to wait for the complainants to provide the information he
had originally requested, which they did not do. Fourth, the processing of the SGER
proposal's file coincided with, and became commingled in, the processing of a large number
of unsolicited basic research proposal files, increasing the time for the program's written
notification to the complainants about the declination decision. All of these steps increased
the processing time for the complainants' SGER proposal. There is no substance to the
allegation that the first program officer delayed the SGER proposal so that other applications
on the same topic could be considered, reducing its chances for funding.

        Allegation #2: The complainants alleged that they did not receive notification of the
SGER proposal's declination in a timely fashion and that the submission date for their
proposal on NSF's FastLane was incorrect. The complainants explained that they called the
NSF program about 3 months after the proposal had been submitted to find out about their
SGER proposal's progress and were told that it had been declined. The complainants
subsequently received written notification of its declination. OIG determined -that it is
common practice for NSF programs officers to inform PIS orally about recommended
decisions prior to official written notification. In this case, the complainants called the
program and received the information. OIG concluded that there was no substance to the
allegation that the first program officer failed to notify the complainants of their proposal's
declination in a timely fashion.

       The complainants explained that NSF's FastLane listed their SGER proposal's
submission date as several months after they had sent it to NSF. When proposals are
received by NSF they are logged-in by the Proposal Processing Unit (PPU) and then by the
Division into NSF's computerized database. OIG learned that, although the complainants'
proposal had been entered into the database appropriately by PPU, the first program officer
had failed to enter the proposal into the database for the Division because he was unaware
that this was necessary. When the first program officer's failure was discovered, the
Division logged-in the complainants' SGER proposal. We were informed that the
submission date for proposals that appears on NSF's FastLane is generated at the time all
required input data for a proposal are entered into the computerized database. Therefore,
NSF's FastLane submission date the complainants' observed was that date on which the

 The second program officer



                                         Page 2 of 4                                  M 96-23
                            CLOSEOUT FOR M-96090023

Division made the final entry of information about the SGER proposal. The DDD wrote to
the complainants explaining these events. OIG concluded that the first program officer's
failure to log-in the complainants' proposal in the Division was an honest mistake.

       Allegation: #3: The complainants claimed their SGER proposal was reviewed
externally, an action that they alleged is not permitted. The second program officer
explained that she observed several discrepancies between the complainants' SGER proposal
and their earlier standard NSF proposal. In one instance, she noted that a co-author on one of
the complainants' manuscripts listed in the earlier proposal, was not included as a co-author
on the same manuscript in the SGER proposal's references. She contacted the co-author7to
learn more about the manuscript and his collaborations with the complainants. She said she
did not discuss the complainants' SGER proposal or ask the co-author to review the proposal.
The co-author provided the second program officer with his negative assessment of his prior
collaborative effort with the complainants, a portion of which was described in the SGER
proposal. The second program officer's diary note indicates that her declination
recommendation was, in part, based on the information she received from the co-author. The
co-author followed up the discussion with a written summary of this research effort.

       OIG learned that, at the time of the division level signoff on the declination, the DDD
asked the program officers to explain the consultation with the co-author and any use of the
information obtained from the co-author in arriving at the decision to decline. The requested
explanation was provided and the DDD concluded that the explanation "did not reflect
particularly good judgment, but did not, [the DDD] felt, represent a reason to question the
decision to decline the SGER proposal." OIG concluded that the DDD's timely review of the
procedures followed by the program officers, in this case, ensured that NSF's decision was
appropriate and that any deficiencies in the proposal handling process would be corrected by
the program.

        Allegation #4: The complainants listed six points they thought showed that the first
program officer intentionally distorted, manipulated, and misinterpreted information in the
SGER proposal. OIG determined that five of the points involved disagreements between the
first program officer and the complainants over the interpretation of data or experimental
techniques. Because of the first program officer's own concerns about their disagreements,
he requested an independent evaluation of the SGER proposal by the second program officer.
Honest disagreements over interpretations and experimental techniques are neither
uncommon nor aberrant and are not considered matters of misconduct in science.

       The sixth point involved what the complainants termed the first program officer's
"tone," in particular, his alleged use of the term "     " They believed the use of the term
         " showed that the first program officer was questioning their ability to interpret data




                                         Page 3 of 4                                   M 96-23
                            CLOSEOUT FOR M-96090023

and doing it in an accusatory fashion. The complainants suggested that the first program
officer's rejection of the SGER proposal was related to this earlier alleged comment.
Although we considered it to be exceedingly unlikely that there was anything inappropriate
about the first program officer's purported use of the term "               " we nevertheless
endeavored to address the complainants' concerns. The first program officer told OIG he
could not remember using this term. OIG's review of the complainants' earlier NSF
proposal showed that one ad hoe reviewer, who rated it as poor, stated that "[tlhis suggests
that the pattern of [the          ] presented as preliminary data may be            [sic] . . . .
                                                                                               9,



We have no evidence that the first program officer used the term in his discussions with the
complainants, but, if he did, it was likely that he was repeating the reviewer's comment from
the earlier proposal.

       This case is closed and no further action will be taken.

cc: staff scientist, AIG-Oversight, legal, IG.




                                          Page 4 of 4
